      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201



February 23, 2012

TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services

FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Audits

SUBJECT:       Medicare Compliance Review of John Muir Medical Center, Walnut Creek, for
               Calendar Years 2008 Through 2010 (A-09-11-02060) and Medicare Compliance
               Review of University of California, San Diego, Medical Center for Calendar
               Years 2008 and 2009 (A-09-11-02055)

Attached, for your information, are advance copies of our final reports for two of our hospital
compliance reviews. We will issue these reports to John Muir Medical Center, Walnut Creek,
and University of California, San Diego, Medical Center within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact Lori
A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360 or
through email at Lori.Ahlstrand@oig.hhs.gov.

Attachment

cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs
       Centers for Medicare & Medicaid Services
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

February 28, 2012


Report Number: A-09-11-02055

Ms. Lori R. Donaldson
Chief Financial Officer
University of California, San Diego, Medical Center
200 West Arbor Drive, M/C: 8987
San Diego, CA 92103-8987

Dear Ms. Donaldson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of University of California,
San Diego, Medical Center for Calendar Years 2008 and 2009. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please call Iman Zbinden, Senior
Auditor, at (619) 557-6131, extension 109, or Alice Norwood, Audit Manager, at
(415) 437-8360. Please refer to report number A-09-11-02055 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Lori R. Donaldson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    MEDICARE COMPLIANCE
   REVIEW OF UNIVERSITY OF
    CALIFORNIA, SAN DIEGO,
     MEDICAL CENTER FOR
       CALENDAR YEARS
         2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-09-11-02055
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

University of California, San Diego, Medical Center (the Hospital) is an acute-care hospital
located in San Diego, California. Medicare paid the Hospital approximately $277 million for
12,947 inpatient and 177,075 outpatient claims for services provided to beneficiaries during
calendar years (CY) 2008 and 2009 based on CMS’s National Claims History data.

Our audit covered $10,790,735 in Medicare payments to the Hospital for 210 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 and 2009 and consisted of 169 inpatient and 41 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 111 of the 210 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 99 claims, resulting in overpayments totaling $350,897 for
CYs 2008 and 2009. Specifically, 72 inpatient claims had billing errors, resulting in
overpayments totaling $238,021, and 27 outpatient claims had billing errors, resulting in
overpayments totaling $112,876. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $350,897, consisting of $238,021 in overpayments for
       the incorrectly billed inpatient claims and $112,876 in overpayments for the incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital stated that it generally agreed with our
findings. Regarding our first recommendation, the Hospital stated that it had corrected all
99 claims with billing errors and submitted the adjusted claims to the Medicare contractor. The
Hospital disagreed with our recommended refund because the overpayment amounts based on
the revised adjudicated claims were less than the overpayment amounts we calculated based on
the original adjudicated claims. In addition, for 14 claims, the Hospital disagreed with our
classification of the errors.

The Hospital provided information on actions that it had taken to address our second
recommendation and provided its own recommendations for improvement.

The Hospital’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments and the adjusted claims information, we determined
that some of the claims originally adjusted by the Medicare contractor were further adjusted after
the issuance of our draft report. Where appropriate, we made changes in our final report to
reflect the subsequent adjustments. We maintain that our error classifications for the 14 claims
are valid.




                                                ii
                                                   TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         University of California, San Diego, Medical Center....................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrect Discharge Status .............................................................................................5
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrect Revenue Code and/or Number of Units .........................................................6
          Incorrect Diagnosis-Related Groups ..............................................................................6
          Incorrectly Billed as Separate Inpatient Stay .................................................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Incorrect Healthcare Common Procedure Coding System Codes
            or Number of Units .....................................................................................................7
          Manufacturer Credit for Replaced Medical Device Not Reported ................................8

      RECOMMENDATIONS ......................................................................................................8

      HOSPITAL COMMENTS ...................................................................................................8

      OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................................9

APPENDIX

      HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.
1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. Examples of the types of claims at risk for noncompliance included the following:

    •   inpatient claims for short stays,

    •   inpatient transfer claims,

    •   inpatient claims with high severity level DRG codes,

    •   inpatient claims for blood clotting factor drugs,

    •   outpatient claims billed prior to and during inpatient stays,

    •   outpatient claims billed with modifier -59 (indicating that a procedure or service was
        distinct from other services performed on the same day),

    •   inpatient and outpatient claims paid in excess of charges, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.




                                                 2
University of California, San Diego, Medical Center

University of California, San Diego, Medical Center (the Hospital) is an acute-care hospital
located in San Diego, California. Medicare paid the Hospital approximately $277 million for
12,947 inpatient and 177,075 outpatient claims for services provided to beneficiaries during
calendar years (CY) 2008 and 2009 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $10,790,735 in Medicare payments to the Hospital for 210 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 and 2009 and consisted of 169 inpatient and 41 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient claims selected for review because our objective did not require an understanding of
all internal controls over the submission and processing of claims. Our review enabled us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

This report focuses on selected inpatient and outpatient claims and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from March to October 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 and 2009;




                                                 3
   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2008 and 2009;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 210 claims (169 inpatient and 41 outpatient claims) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File (CWF) for the selected
       claims to determine whether the claims had been canceled or adjusted;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 111 of the 210 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 99 claims, resulting in overpayments totaling $350,897 for
CYs 2008 and 2009. Specifically, 72 inpatient claims had billing errors, resulting in
overpayments totaling $238,021, and 27 outpatient claims had billing errors, resulting in
overpayments totaling $112,876. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.




                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 72 of 169 selected inpatient claims, which resulted
in overpayments totaling $238,021.

Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 26 of 169 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers to other facilities. For a majority of these
claims, the Hospital should have coded the discharge status as a transfer to another facility
instead of as a discharge to a home; thus, the Hospital should have received the per diem
payment instead of the full DRG payment. For 1 of the 26 claims, the entire Medicare payment
was in error because Medicare was subsequently determined to be the secondary payer. The
Hospital stated that these errors primarily occurred because the coding staff did not identify the
disposition status information in the discharge plans and physician orders. For 2 of the 26 errors,
the Hospital stated that the patients decided to seek alternative health care services at other
facilities without the Hospital’s knowledge. As a result of these errors, the Hospital received
overpayments totaling $103,630.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if “… with respect to inpatient hospital services … which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….”

For 25 of 169 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for these
claims as inpatient:

   •   For 23 claims, the Hospital incorrectly billed for beneficiary stays that should have been
       billed as outpatient services. The Hospital subsequently reviewed each of the claims and




                                                 5
        determined that the patient did not meet the severity of illness or level of care required to
        be admitted as an inpatient.

    •   For two claims, the Hospital incorrectly billed for an inpatient stay that lacked a
        physician order to admit the patient to inpatient care.

The Hospital stated that the errors occurred because of inadequate internal controls. Specifically,
because of the short nature of patient stays, case management review did not always occur. In
addition, the Hospital stated that clerical errors resulted in the incorrect assignment of patient
statuses because physician orders with information on admission statuses were overlooked or
updated. As a result of these errors, the Hospital received overpayments totaling $159,320. 4

Incorrect Revenue Code and/or Number of Units

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 3, section 20.7.3.A, states
that hospitals receive an add-on payment for the costs of furnishing blood clotting factors to
certain Medicare beneficiaries and that the provider must use revenue code 0636 so that the
clotting factor charges are not included in the cost outlier computations.

For 12 of 169 selected inpatient claims, the Hospital submitted claims to Medicare with blood
clotting factor drugs billed with an incorrect revenue code. Specifically, the Hospital used
revenue code 0250 instead of using revenue code 0636, which caused the clotting factor charges
to be included in the cost outlier computations, resulting in incorrect outlier payments. In
addition, for a majority of these claims, the Hospital billed the incorrect number of clotting factor
units. The Hospital stated that these errors occurred because the clotting factors were mapped to
the incorrect revenue center in the billing system. As a result of these errors, the Hospital was
overpaid for 3 of the 12 claims, totaling $40,848, and was underpaid for the remaining 9 claims,
totaling $169,898. The combination of the overpayments and underpayments was a net
underpayment of $129,050.

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 7 of 169 selected inpatient claims, the Hospital submitted claims to Medicare with incorrect
DRGs. For example, for one claim, the Hospital used the DRG for vascular procedures with
major complication/comorbidity rather than using the DRG for vascular procedures without

4
  At the time of our audit, for one claim, CMS’s Recovery Audit Contractor (RAC) also determined the claim to be
in error, and the overpayment was recovered. As a result, we did not include this claim in our calculation of
overpayments.



                                                        6
complication/comorbidity or major complication/comorbidity. The Hospital stated that the seven
errors occurred because coding staff unintentionally selected diagnosis codes that were not
supported by the medical records, resulting in incorrect DRGs. As a result of these errors, the
Hospital received overpayments totaling $67,105.

Incorrectly Billed as Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment
       System (PPS) hospital and is readmitted to the same acute care PPS hospital on
       the same day for symptoms related to, or for evaluation and management of, the
       prior stay’s medical condition, hospitals shall adjust the original claim generated
       by the original stay by combining the original and subsequent stay onto a single
       claim.

For 2 of 169 selected inpatient claims, the Hospital incorrectly billed Medicare for related
discharges and readmissions within the same day. The Hospital stated that these errors occurred
because the coding staff did not identify the previous related admissions. As a result of these
errors, the Hospital received overpayments totaling $37,016.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 27 of 41 selected outpatient claims, which resulted
in overpayments totaling $112,876.

Incorrect Healthcare Common Procedure Coding System Codes or Number of Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, chapter 4, section 20.4, of the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed.”

For 23 of 41 selected outpatient claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes or an incorrect number of units:

   •   For 16 claims, the Hospital billed Medicare using incorrect HCPCS codes. For example,
       for one claim, rather than billing the HCPCS code for a complex repair of retinal
       detachment, the Hospital billed individual HCPCS codes for release of eye fluid, removal
       of inner eye fluid, replacement of eye fluid, laser treatment of retina, and treatment of
       retinal lesion.




                                                 7
   •   For seven claims, the Hospital billed Medicare for an incorrect number of units. For
       example, for one claim, rather than billing one unit for the insertion or repositioning of
       electrode leads and the insertion of a pulse generator, the Hospital billed two units.

The Hospital stated that these errors occurred because of clerical mistakes. As a result of these
errors, the Hospital received overpayments totaling $53,233.

Manufacturer Credit for Replaced Medical Device Not Reported

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier -FB and reduced
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

For 4 of 41 selected outpatient claims, the Hospital received manufacturer credits for replaced
devices but did not report the modifier -FB or reduced charges on its claims. The Hospital stated
that these errors occurred because the coding staff was not aware of modifiers for device credits.
As a result of these errors, the Hospital received overpayments totaling $59,643.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $350,897, consisting of $238,021 in overpayments for
       the incorrectly billed inpatient claims and $112,876 in overpayments for the incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital stated that it generally agreed with our
findings. Regarding our first recommendation, the Hospital stated that it had corrected all
99 claims with billing errors and submitted the adjusted claims to the Medicare contractor. The
Hospital disagreed with our recommended refund because the overpayment amounts based on
the revised adjudicated claims were less than the overpayment amounts we calculated based on
the original adjudicated claims.




                                                   8
For 14 claims, the Hospital disagreed with our classification of the errors:

   •    For one claim related to incorrect discharge status, the Hospital stated that the
        overpayment amount was due to an error in the Medicare CWF and that Medicare was
        retrospectively indicated as the secondary payer.

   •    For one claim identified as incorrectly billed as inpatient, the Hospital stated that the
        claim was previously addressed during a Medicare RAC audit and recommended that the
        claim be excluded from our report.

   •    For 12 claims related to an incorrect revenue code and/or number of units, the Hospital
        disagreed that the incorrect number of units of blood clotting factor was billed and
        contributed to incorrect payments to the Hospital.

The Hospital provided information on actions that it had taken to address our second
recommendation and provided its own recommendations for improvement.

The Hospital’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments and adjusted claims information included in the CWF,
we determined that some of the claims originally adjusted by the Medicare contractor were
further adjusted after the issuance of our draft report. Where appropriate, we made changes in
our final report to reflect the subsequent adjustments.

We maintain that our error classifications for the 14 claims are valid:

    •   We acknowledge that the overpayment for one claim was due to Medicare being the
        secondary payer. However, for reporting purposes, we classified the error as an incorrect
        discharge status because the claim also had this deficiency.

    •   After completion of our review, the Hospital informed us that one claim was previously
        addressed by the RAC audit. Therefore, we did not show an overpayment amount for
        this error but included the claim in our report.

    •   Based on our review of supporting documentation for the 12 claims, errors in the billing
        of the number of administered units of blood clotting factors resulted in underpayments
        and overpayments on the adjusted claims. Therefore, we did not revise our finding.




                                                 9
APPENDIX
                                                                                                                            Page 1 0[4




                                        APPENDIX: HOSPITAL COMMENTS 





                                                   1JC~S(;l!1:Q!~gQ
                                                       MEDICAL CENTER

         January 21, 2012

         lori A. Ahlstrand
         Regional Inspector General for Audit Services
         Department of Health & Human Services
         Office of Audit Setvices, Region IX
         90 - 7th Street. Suite 3-650
         San Francisco, CA 94103

         Ref: Report Number A-09-11-020S5

         Dear Ms. Ahlstrand:

         Please accept the following comments from the University of California San Diego Medical Center in response to the
         Department of Health and Human Services (DHHS), Office of Inspector General (OIG)1 draft report entitled "Medicare
         Compliance Review of University of Cali/ornio, San Diego, Medical Centerfor Calendar Years 2008 and 2009." We
         appreciate the opportunity to respond to the draft report.

         The University of California San Diego Medical Center (Hospital) generally agrees with the DIG's findings. Clalms
         identified wIth payment adjustments have been submitted to the Medicare Administrative Contractor (MAC) through
         the Fiscallntermed!ary Standard System.

         Responses to the OIG's recommendations follow:

         DIG Recommendation 1: Refund identified overpayments of $627,555 to the Medicare Administrative Contractor
         IMAC).*
         Response: The Hospital, In accordance with the OIG recommendation, corrected all 99 claims identified as having
         billing errors during the audit and submitted the adjusted claims to the MAC. To date, the MAC has adjudicated 90 of
         the 99 corrected claims, and 9 are pending final processing with the MAC,

         DIG Recommendation 2; Strengthen controls to ensurefull compliance with Medicare billIng requirements,
         Response: The Hospital has, since the dates covered by the OIG audit (2008 and 2009 dates of service), implemented
         a number of educational programs, leveraged new and existing technology, and redesigned processes to strengthen
         controls in areas covered by the audit that impact billing, The following is a partial list of these changes:

         1. 	 Training and Education:
                      Providing regular coding and compliance education and conduct coding reviews for coding and billing
                      personnel.
                 •	   Providing physician trainIng regarding admission orders and admission status criteria utilizing the
                      electronic medical record (EMR) .




• Office of Inspector General Note: Because of adjustments made after issuance ofthe draft report, the
overpayments for the 99 erroneous claims totaled $350,897. The Hospital stated that it had submitted all ofthe
adjustments to the Medicare contractor.
                                                                                                                        Page 2 of 4




Lori A. Ahlstrand
January 21, 1012


2. 	 TechoQlogy Enhancemeo\s:
         • 	 Creating ~tandilrd admission order wOfkflows for physicians built into the new EMR.
         • 	 Establishing standards for pllarmacy billing across all ClIrl! settings In the new pharm;u;y system.
         • 	 Developing targeted reports to monitor compliance related to admissions, utilization revie w, coding, and
             billing adivitles and wor k products.
         •   Expanding pre -blltlng validation of short-slay admissions at key points In the process, Including post­
             discharge and prior to final coding. and post-coding and prior to claim submission.
3. 	 Process Refinements:
         • 	 Performing enhanced monitoring of key processes related to admissions, concurrent ulililatlon reviews,
             coding, and billing utilizing targeted reports.
         • 	 Conducting routine com munication and dissemination of Information witliln and across admissions,
             utilization review, coding, bllllng, and technology departments.
         • 	 Communicating with Internal departments regardIng additional informal(on needed for billing of
             replacement of medical devices, e.g., full and/or partial credits received and product Information -10
             ensure tliat respective claims accurately reflect tlie reduced charges and modifier per the requirements
             outlined in the Medicare Claims ProceSSing Manual.
             Modifying billing processes to minimize manual activities and instituting routine monitoring of remaining
             manual billing tasks.

Other responiU to the OIG audit and flndlnss In the Draft Report:


Wlille UnIversity of California San Diego Medical Center Hospllal agrees with some of the OIG's findings In the draft
report, tlie Hospital disagrees with the quantification of overpaymenls and tlie qualification of errors as described
below.

1. 	 Quantification of Overoavments: The Hospital agrees with the OIG all $375,350 of $627,555 In overpayments for
    claims tliat liave been final processed by tlie MAC lor the amounts Indicated by the OIG. The Hospital cannot
    agree or disagree on $151,624 related to claims that are pending final processing by the MAC. Lastly, the Hospital
    disagrees with the OIG 01\ tlie remaining $100,581 In overpayments Indicated by the OIG based on the fInal
    adjudication by the MAC for wlilch the remediated claim was paid more than what was reflected by Ihe OIG. The
    variance between the amounts OIG Indicated as being the remedlated payment and the actual payment upon
    fina l adjudication of the corrected claim results In an underpayment amount of ($73,602). The refore, the OIG's
    overpayment amount 01 $627,55515 overstated by $174,183.


    • 	 Overpayments for claims that have !lot been final processed bv tlie MAC: 9 of 99 claims with errors have not
         been final processed by tlie MAC, yet overpayments of $151,624 have been ascribed to these claims and thus
         contribute 10 the total overpayment amount of $627,555 III the draft report.


         Variances based on actual remedlated claim payment amounts received as compared 10 DIG reimbursement
         prolectkms: 24 of 99 claims that were final processed by llie MAC yIelded a payment amount greater than
         the DIG projected reimbursement amount. DIG Indicates that these 24 claims were overpaId by $1oo,5g1,
                                                                                                                            Page 3 of 4




L"r{ A. Ahlstrand
January 21,2012


         when In fact these claims were underpaid by ($73,602) based on final adjudication by the MAC (ollsistent
         with the Hospital's e~pected payment amount.
         o 	 14 of 24 adjudicated claims were paid less than the origina l payment, but more than projected by DIG;
             thereby reducing the stated overpayment for these claims by ($4,27S). The OIG projected overpaymerlt
             amount to be $100,581. The actual overpayment for these 14 cla ims was $96,306.
         o 	 10 of 24 claims were paid more than the original paymelll upon final adJudlcaUon of the corrected claims
             by the MAC, consistent with the Hospital's estimates. OIG relleded ali 10 of these claims as contributing
             $0 In overpayments, when In fact these claims were underpaid by ($169,908), thereby red ucing the lolal
             overpayment by this amount.

2. 	 QuaUflcaUon pf Errors: The Hospital dIsagreeS will'. attribution and description of errors for Instances described
     below In the DIG's draft report.

         1 claim as In~orrect discharge jtatus: 1 claim 01G Cited as having this error with an overpayment amount of
         $38,860 was determined to be due to an error In the Medicare Common Working Flle (CWF). At the tIme of
         claim submission, Ihe CWF reflected Medicare as the primary payor. However, subsequent to verlf1c3tlon of
         the coordination of benefits against the CWF and claim submission to alld payment by Medicare as primary,
         the CWF was revised by Medicare. Medlcare was retrospectively Indicated as the secondary payor. No alert
         was provided to the Hospital of Ihls retrospective change. However, upon self-Identifying this error during
         the course of the audit, the Hospital refunded Medicare and Is pursuing the other payor for reimbursement
         citing delayed update of the CWF as the rationale.

         1 claim as Incorrectly billed as Inpatient: 1 claim was previously addressed as part 01 a Medicare RAC audit,
         yet DIG reflected this claim as 1 of 99 tolal claIms found to have errors In the draft report. Whlle the OIG
         reflected $0 overpayment Impact, the Hospital recommends that this claim be excluded from the OIG audit
         sample and report.

    • 	 12 claims ulncorreCi reven\le code and/or !'l\lmber of units: The Hospital concurs with the OIG that 12
        Inpatient claims that Included blood clolllng factor were Incorrectly billed due to this pharmacy item being
        reflected In the 0250 revenue code. The Hospital dl~agrees, however, with the OIG sta te ment that the
        Incorrect units of blood clotting factor were billed and contributed overpayments to the Hospital, c!tlng the
        National Uniform Billing Commltlee guide billing requirements for Items billed using revenue code 0250 as
        the rationale.


Provider recommendations for Improvement:

ProvIder Recommendation 1- Discharge Disposition Stat\l5 Disparities
Suggestion applies to any scenario where a Medicare beneficiary discharges to another facility (location other than
home), regardless of whet her this Information Is known to the dischargIng facility or not at the time the patien t Is
being discharged. f or the speclf1c sltuatlonj where patien ts who are discharged to home, but who later seek
additional health care at other health care facilities without notice to the hospital, It Is not reasonable to e~pect the
hospital will (a) be made aware of such Instances and (b) Inpatient claims would accurately reflect such unknown
                                                                                                                            Page 4 of 4




LoriA Ah/stfoltd
January 21, 20.12


circumstances (occurring post-discharge). The MAC, upon receiving claims from both facilities, should be required to
notify hospital providers to submit a claim adjustment or automatlcallv trigger Ihe adjustment via the existing HIPAA
transaction-based communications.

Provider Recommendation 2 · Common Working File (CWFj Changes 

Similar to the recommendation for addressing variances in the discharge disposition status reflected on billed claims, 

the Hospita l susgests alerting providers when a change to Ihe CWf has a material impact to claims previously
submiuf:d to the MAC. The MAC'S notice would also serve Improve the accuracy of the CWF content by alerting
providers. (Reference: Federal Regl.ter, Vol. 68, No. 148, page 45405, August 1, 2003,
http://flWebgate.access.gpo.gov/cgl-blnlKetpage.cgIJ

Provider Recommendation 3 - Replacemeflt of Medltal Devices
The Hospital suggests that there be a requirement placed on the medical device dlstributers and manufacturers to
submit quarterly Information to a secure, central data repository for replacement devkesthat were Issued as a "no
cos t" device or issued a partial or full credit for a faulty device. Example of data elements for the device repository:
product serial number, model number, description, manufacturer, device type, applicable HCPCS codes, and the NPI
number for the provider/provider entity who received the medical device. This Inform3l10n will allow Ihe provider to
facilita te accurate claim submission and will provide Medicare with the ability to ve rify the accuracy of provider
claims based on registry Information. If the content of a claim related to replacement devices does not align with the
content In the database, the MAC can alert the provider of this disparity so tha t the claim can be addressed
accordingly, In the Instances where devlte credit Information becomes available AFTER claim submission, the MAC
cou ld trigger a payment adjustmen t, as appropriate, to the provider. This would improve efficiency and acwracy for
outpatient and Inpallent device claims and could be utilized In lieu of modifiers,


The Hospital Is committed to acwrate billing. As stated In this respolIse, the Hospital made all necessary corredlons
to errors Identified through Ihls audit by refunding the overpayments through the adjusted claim adjudication
performed by the MAC. The Hospital In conjunction with the Compliance Program, has and will conti nue to actively
strengthen controls to prevent billing errors, to monitor adherence to billing requirements, and to promptly remedy
Identified deficIencies, particularly lor the audited areas.



Sincerely,

 fM~ JJaut~'K.
Kathleen Naughton
Chief COmpliance 8. Privacy OffICer



Cc:     l orl R. Donaldson, Chief Financial Officer, University of California San DIego Medical Center
        Betsy J. Grossman, Director, Revenue Cycle Administration, UnIversity of California San Diego Medical Center
        Thomas V. McAfee, M.D., Interim ChIef Execullve Oftker, Universlly of California San Diego Health System




                                                                                                                            4
